             June 7, 2004


             MEMORANDUM
             FOR:                    Mission Directors in the Bureau for Latin America and the
                                     Caribbean

             FROM:                   Regional Inspector General/San Salvador, Steven H. Bernstein

             SUBJECT:                Survey of Payments for Value Added Taxes to Governments in Latin
                                     America and the Caribbean (Report No. 1-598-04-002-S)

             This report presents the results of our survey. This is not an audit report and does
             not contain any formal recommendations for your action.

             One mission provided very brief comments on the report. USAID/Dominican
             Republic stated that, in general, it appears that the Latin America and the Caribbean
             region has been very effective in dealing with the Value Added Tax issue. Due to
             the brevity of the comments, we are not including a separate appendix containing
             management comments.

             I appreciate the cooperation and courtesy extended to my staff during the survey.



Background   During an April 2003 risk assessment of USAID/Mexico, RIG/San Salvador noted
             that USAID/Mexico was reimbursing its partners between $420,000 and $735,000
             per year for Value Added Tax1 (VAT) payments made to the Mexican Government.
             These payments were being made contrary to the terms of the 1951 bilateral
             agreement between the U.S. and Mexican governments. We believed this issue

             1
                  A Value Added Tax is a tax added each time a product is resold, or when value has been added. (The exact legal
                 definition would depend on the specific country.) The cost of goods and services in countries with Value Added Tax
                 already includes this built-in tax. In contrast, a sales tax is added when the good or service is sold at the retail point, and
                 the tax is added to the retail price.




                                                                                                                                              1
could be systemic for the missions in the Bureau for Latin America and the
Caribbean (LAC) and decided to conduct a survey on the matter. 2

The fiscal year 2003 Foreign Operations Appropriations Act emphasized the
longstanding principle that U.S. assistance should not be taxed by foreign
governments by stating, “None of the funds appropriated by this Act may be made
available to provide assistance for a foreign country under a new bilateral agreement
governing the terms and conditions under which such assistance is to be provided
unless such agreement includes a provision stating that assistance provided by the
United States shall be exempt from taxation, or reimbursed, by the foreign
government, and the Secretary of State shall expeditiously seek to negotiate
amendments to existing bilateral agreements, as necessary, to conform with this
requirement.” The Appropriations Act also stipulated that, after February 20,
2003, no funds could be obligated on commodities financed by U.S. assistance
under new bilateral agreements3 or new framework bilateral agreements4 that do
not include a provision for the exemption or reimbursement of VAT and customs
taxes. The Act stipulated that 200 percent of the unreimbursed taxes assessed
during the February 20, 2003 to September 30, 2003 timeframe be withheld, of
which half would be available for reprogramming and half would be returned to
the U.S. Department of Treasury.5 In addition, USAID’s Automated Directives
System contains provisions stating that foreign assistance funds cannot be utilized to
make tax payments to foreign governments.

In April 2002, USAID’s Administrator’s office sent a questionnaire to mission
directors to collect information on VAT payments made to foreign governments.
The survey, from the USAID Deputy Administrator, stated that “A basic tenet of
U.S. economic assistance programs since their beginning has been that goods and
services funded by the U.S. government are generally not subject to local taxation.”
The results of the questionnaire disclosed that 13 out of 16 missions in the Latin
America and Caribbean region were located in countries that had VAT.6 No formal
report resulted from this effort.

2
    In March 2004, USAID/Mexico reported that it, in conjunction with the Embassy, completed negotiations that will allow
    for VAT exemptions in the near future. USAID/Mexico has not provided our office with the timeframe for this process.
3
    Bilateral agreements between USAID and a foreign government (or a subdivision thereof, as in the Ministry of Health,
    or a local or state government or agency) finance activities in furtherance of a strategic objective or for other purposes.
    Bilateral grants range from grants financing specific objectives and limited scope grant agreements to Strategic
    Objective Agreements, commodity import program grants and cash transfer grants.

4
    Framework bilateral agreements between the U.S. Government and the host government establish the USAID mission as
    a special mission; identify the privileges and immunities to be provided to USAID personnel; implement USAID's long-
    standing policy that assistance should be exempt from host government taxes by setting forth the privileges and
    exemptions from taxes and duties for USAID-financed supplies and services and USAID contractors and recipients; and
    list other general terms and conditions for USAID assistance.

5
    Our survey did not focus on whether funds were obligated in accordance with the fiscal year 2003 Foreign Operations
    Appropriations Act or on whether the 200 percent penalty was assessed. Rather, our survey focused on the LAC
    missions’ actions to eliminate VAT or to be reimbursed in a timely manner.

6
    Our survey showed that 14 of the 16 missions in the Latin America and Caribbean region were located in countries that
    had VAT. The difference was due to the tax in the Dominican Republic, as the tax had characteristics of both a sales tax



                                                                                                                             2
             On February 20, 2004, the U.S. General Accounting Office (GAO) issued a report
             entitled Foreign Assistance: USAID and the Department of State Are Beginning
             to Implement Prohibition on Taxation of Aid.7 Our survey expanded on GAO’s
             report and the USAID’s administrator’s survey by identifying what actions
             missions in Latin America and the Caribbean had taken to eliminate VAT or to be
             reimbursed in a timely manner. The purpose of this memorandum is to report the
             results of our survey.

             Appendix I contains a discussion of the survey’s scope and methodology.


Discussion   Eleven out of the 16 USAID missions in Latin America and the Caribbean either
             paid no VAT to host governments, or were reimbursed in a timely manner. In
             three countries, missions either paid VAT to host governments without getting
             reimbursed or received reimbursement in an untimely manner. These three
             missions have taken action to eliminate VAT payments or receive reimbursements
             sooner, but their efforts have been unsuccessful.              Two missions,
             USAID/Honduras and USAID/Guyana, were in countries that did not have a
             VAT.

             Of the three missions cited above, two have not fully eliminated VAT payments
             and one was not receiving VAT reimbursements in a timely manner, as illustrated
             in Table 1 (page 4). Specifically, in Brazil and Haiti, the host governments did
             not fully exempt or reimburse VAT; while in Peru, the processing time for VAT
             reimbursements exceeded the standard of 120 days set by Department of State
             guidance.8 Based on USAID/Peru’s survey response, the delay in processing
             VAT claims was beyond the control of Mission or Embassy staff and was under
             the control of the USAID grantees. The reasons cited for the delay were the late
             presentation of operational plans by grantees to the Government of Peru, outdated
             grantee registration with the Government of Peru (renewal is required every two
             years), late presentation of VAT claims, and submission of invoices that did not
             comply with current legislation.




                 and a value-added tax. When the Mission replied to the April 2002 questionnaire, USAID considered it to be a sales
                 tax. However, as the Mission further analyzed the tax, it changed its view and then considered it a value added tax.

             7
                 The report number was GAO-04-314R.

             8
                 The Department of State cable number 273956, entitled “Restriction on Taxing Foreign Assistance – Section 579 of the
                 FY 2003 Foreign Operations Act,” dated September 26, 2003, provides sample text for a “Model Provision for
                 Agreements” to be negotiated by U.S. Government agencies. Such text states that the foreign country imposing duties
                 “shall provide reimbursement within 4 months [emphasis added] from the date of assessment to the Government of the
                 United States or its agents (including recipients) for, at a minimum, VAT and customs duties that are imposed [or may
                 be subject to a withholding penalty on future U.S. assistance].”




                                                                                                                                    3
     Table 1 - VAT Status for the Latin America and the Caribbean Missions


     Mission               Eliminated VAT or              VAT not                 Late                   Not
                            Reimbursed in a             Eliminated or         Reimbursement           Applicable
                            Timely Manner                Reimbursed                                   (No VAT)

     Bolivia                          X
     Brazil9                                                   X
     Colombia                         X
     Dominican                        X
     Republic
     Ecuador                          X
     El Salvador                      X
     Guatemala                        X
     Guyana                                                                                                X
     Haiti                                                     X
     Honduras                                                                                              X
     Jamaica                          X
     Mexico10                         X
     Nicaragua                        X
     Panama                           X
     Paraguay                         X
     Peru                                                                             X

     Totals                          11                         2                      1                   2


The three missions have taken actions to address the VAT exemption or
reimbursement, as noted below:

       •    USAID/Brazil has conducted periodic negotiations over several years
            designed to obtain full VAT exempt status, but these negotiations have not
            been successful. It did not anticipate obtaining full exempt status in the
            near future due to jurisdictional issues between the country’s federal, state,
            and in some cases, municipal levels. The Mission expressed that it has
            sought to limit purchases subject to VAT. For fiscal year 2003, it stated
            that VAT payments to Brazilian federal, state and municipal governments
            totaled less than $100,000, or less than one percent of its portfolio.


9
     The Government of Brazil exempts USAID personnel and office operations from taxes on gasoline (Brasilia only),
     airport departure, telephone and electricity. All other local USAID purchases require payment of VAT.
10
      Even before the completion of recent negotiations that will allow for VAT exemptions (footnote number 2), VAT
     reimbursements to USAID/Mexico were delivered in a timely manner.




                                                                                                                 4
                •   USAID/Haiti officials stated that they had an excellent working
                    relationship with the new interim Haitian government. The Mission
                    anticipates resolving the taxation issue promptly, through either an
                    exemption system or a reimbursement mechanism.

                •   USAID/Peru has co-hosted a training meeting with Peruvian Agency for
                    International Cooperation officials to provide instruction to grantees on
                    the reimbursement process, held working sessions with Government of
                    Peru tax authorities and the Peruvian Agency for International
                    Cooperation to inform them of the Mission’s concern regarding the
                    reimbursement delays, and sent a letter to the Ministry of Economy to
                    communicate that future aid could be cut if withheld taxes are not
                    reimbursed, as established in the fiscal year 2003 Foreign Operations
                    Appropriations Act. The Mission also recently negotiated with the
                    Government of Peru tax agency and the Peruvian Agency for International
                    Cooperation to allow for the reimbursement of VAT paid by for-profit
                    contractors.



Conclusion   This survey was undertaken to determine what actions the missions have taken to
             eliminate VAT or ensure timely reimbursement. Whereas two countries did not
             have a VAT system, the survey found that 11 missions have either fully eliminated
             VAT payments to host governments or ensured reimbursement of VAT on a timely
             basis.

             For the three missions that either paid VAT to host governments without getting
             reimbursed or received reimbursement in an untimely manner, additional steps are
             required to ensure conformity with U.S. Government policy. We suggest that these
             missions, directly or through their Embassy, continue negotiations with their
             pertinent host government to identify ways to either eliminate VAT or be
             reimbursed in a timely manner. We request that USAID/Brazil, USAID/Haiti and
             USAID/Peru notify our office of the corrective actions they intend to take, and the
             timeframes for such actions.




                                                                                              5
(This page intentionally left blank)




                                       6
                                                                                                             Appendix I

              Scope
Scope and
Methodology   The Office of the Regional Inspector General in San Salvador conducted this
              survey to determine what actions missions in the Bureau for Latin America and
              the Caribbean took to eliminate VAT or to ensure timely reimbursement of VAT
              paid. The survey was conducted via electronic mail or telephone calls with all the
              LAC missions from our office in San Salvador, El Salvador between October 29,
              2003 and May 5, 2004. Our review covered the time period of November 20, 2003
              (receipt of the first VAT questionnaire) to April 19, 2004 (last clarification to
              questionnaire responses).

              We did not perform tests to verify the accuracy of the data reported by the
              missions. In addition, the survey did not attempt to evaluate the effectiveness of
              the missions’ actions to eliminate VAT or ensure its timely reimbursement.

              Methodology

              We reviewed applicable laws, regulations, policies and guidance issued by
              Congress, USAID and the Department of State. We reviewed the General
              Accounting Office’s report titled Foreign Assistance: USAID and the Department
              of State Are Beginning to Implement Prohibition on Taxation of Aid. We
              interviewed USAID/El Salvador’s staff personnel who processed VAT claims to
              understand the VAT reimbursement process. We reviewed a summary of the
              responses to the USAID Deputy Administrator’s survey.

              We developed a questionnaire to capture which actions the missions took to either
              eliminate VAT or ensure timely reimbursement, and reviewed the missions’
              responses. We sent the survey to all 16 LAC missions.11 We used the 120 days
              stated in the Department of State’s guidance12 as our criteria for a timely
              reimbursement.




              11
                   The 16 USAID missions were located in Bolivia, Brazil, Colombia, Dominican Republic, Ecuador, El Salvador,
                   Guatemala, Guyana, Haiti, Honduras, Jamaica, Mexico, Nicaragua, Panama, Paraguay and Peru.

              12
                   See footnote number 8.



                                                                                                                           7
